               U.S. Department of the Interior
                   Office of Inspector General




       Collection of Outstanding
            Taxes and Fees
          Government of the Virgin Islands

Report No. V-IN-VIS-0011-2006         January 2008
                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                      Western Region Office
                                  2800 Cottage Way, Suite E-2712
                                   Sacramento, California 95825
                                                                                   January 10, 2008
Honorable John P. de Jongh, Jr.
Governor of the Virgin Islands
No. 21 Kongens Gade
St. Thomas, VI 00802
Re:      Final Audit Report Collection of Outstanding Taxes and Fees, Government of the
         Virgin Islands (Report No. V-IN-VIS-0011-2006)
Dear Governor de Jongh:

         The enclosed final report presents the results of our audit of the collection of outstanding
taxes and fees of the Government of the Virgin Islands (GVI). Our objective was to evaluate the
current level of taxes and fees owed to GVI and determine whether GVI was making reasonable
efforts to collect these outstanding amounts. Our audit scope and methodology are detailed in
Appendix 1.

        We found that the process of collecting delinquent taxes in the Virgin Islands is
inefficient and ineffectual and does not fully comply with the law. The Bureau of Internal
Revenue (BIR) and the Department of Finance (DOF) did not act in the best interest of your
government, doing very little to collect the taxes owed. Cumulative uncollected tax revenues
spanning the last 10 years total over $250 million. Of this amount, we estimate that $128 million
will not ever be recovered because of the age of the debt. BIR and DOF have focused on
accounting for receipts and ignored their charge to collect delinquent taxes. Specifically, they
did not (1) always timely assess taxpayers, (2) identify non-filers, (3) meet collection timelines,
or (4) focus collection efforts to maximize recovery. These conditions, taken collectively,
demonstrate a systematic breakdown in the collection of delinquent taxes, which undermines the
integrity of the Virgin Islands tax system. The conditions are of long-standing and have been
documented in numerous reports (see Appendix 2).

        We also found agency practices that circumvented legislation enacted to prevent tax
evasion through the use of tax clearance letters and the abuse of position by an official charged
with enforcing the legislation. Under the law, the Department of Licensing and Consumer
Affairs (DLCA) and BIR form a system of checks and balances to ensure that business licenses
are not issued to applicants with delinquent taxes. However, DLCA issued business licenses to
applicants who did not have tax clearance letters, and BIR issued clearance letters when
delinquent taxes were owed. These practices rendered the tax evasion legislation ineffective and
further undermined the integrity of GVI’s tax collection efforts. In the case of BIR, the former
Director, between 2002 and 2006, issued 237 favorable tax clearance letters to taxpayers, some
of whom were not current in their filing and paying of taxes or did not have a payment
agreement in place. The letters to delinquent taxpayers falsely stated that, according to BIR, the
taxpayers were current in filing and paying their tax obligations, thereby allowing them to evade
payment of taxes to GVI.

        Given the breadth and depth of tax collection deficiencies, we concluded that your direct
intervention is needed to achieve significant and lasting improvements. Accordingly, our five
recommendations represent a holistic approach to correcting deficiencies and provide an
opportunity, as you begin your new administration, to establish an effective and vigorous tax
collection process that maximizes the revenues needed to support the work of your
administration. We are pleased that you agree with our recommendations, as stated in your
November 30, 2007 response to our draft report (Appendix 4). Based on your response, we
consider Recommendations 1, 2, and 4 to be resolved but not implemented and
Recommendations 3 and 5 to be resolved and implemented (Appendix 5).

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit reports issued, the monetary effect of audit findings,
actions taken to implement our audit recommendations, and recommendations that have not been
implemented. The monetary impact of the findings in this report is shown in Appendix 3.

       Please provide a response to this report by February 28, 2008. The response should
provide the information requested in Appendix 5 and be addressed to Mr. Hannibal M. Ware,
Field Office Supervisor, Office of Inspector General, Caribbean Field Office, Ron deLugo
Federal Building, Room 207, St. Thomas, VI 00802. We appreciate the cooperation shown by
government staff during our audit. If you have any questions concerning this report, you may
contact me at (916) 978-5653 or Mr. Hannibal M. Ware at (340) 774-8300.

                                             Sincerely,



                                             Michael P. Colombo
                                             Regional Audit Manager

Enclosure

cc: Director, Bureau of Internal Revenue
    Commissioner, Department of Finance




                                                 2
CONTENTS
                                         Government, Economy, and Revenues .......................................1
INTRODUCTION
                                         Overview .....................................................................................3
RESULTS OF AUDIT                         BIR Collection Activities Unfocused ........................................3
                                         Real Property Tax Bills Unpaid Without Consequence..............6
                                         Circumvention of Law and Abuse of Position ............................8

                                         To the Governor of the Virgin Islands ......................................11
RECOMMENDATIONS                          Governor’s Response and Office of Inspector General (OIG)
                                         Reply ........................................................................................11

                                         Audit Scope and Methodology ................................................13
APPENDICES                               Prior Audit Coverage ................................................................15
                                         Monetary Impact .......................................................................17
                                         Governor of the Virgin Islands’ Response................................ 18
                                         Status of Audit Recommendations............................................ 25




Acronyms
BIR ............................................................................................ Bureau of Internal Revenue
DLCA ....................................................... Department of Licensing and Consumer Affairs
DOF .................................................................................................. Department of Finance
OIG ....................................... U.S. Department of the Interior, Office of Inspector General
GVI .................................................................................. Government of the Virgin Islands
VIC ....................................................................................................... Virgin Islands Code




                                                                i
INTRODUCTION
GOVERNMENT,    The Virgin Islands are an unincorporated territory of the United
ECONOMY, AND   States, located about 1,000 miles southeast of Miami, Florida. The
REVENUES       U.S. Department of the Interior assumed responsibility for
               administration of the Virgin Islands in 1931, and in 1936 the U.S.
               Congress enacted the Organic Act, which established the Islands’
               civil government. The Revised Organic Act of 1954 established a
               state constitution. The economy of the Virgin Islands is based on
               tourism and industries, such as rum production, oil refining, and
               jewelry manufacturing.

               In fiscal year 2007, GVI’s revenue budget totaled about
               $917 million, of which about $689 million was local revenues.
               Local tax revenue accounts for 75 percent of the funds available
               for expenditure by GVI, as shown in Figure 1 below.




                                                                             Figure 1

               As a U.S. Territory, GVI is subject, with few exceptions, to U.S.
               federal rules and regulations, including the U.S. Internal Revenue
               Code. The booklet, Tax Structure of the U.S. Virgin Islands,
               prepared by the Office of the Chief Counsel for BIR, states:

                  The sources of the Virgin Islands taxing authority include the
                  Internal Revenue Code of 1986 . . . and the Naval Service
                  Appropriations Act of 1922, which established the principle that
                  the IRC [U.S. Internal Revenue Code] applies in the Virgin
                  Islands under a ‘MIRROR SYSTEM’ whereby the ‘VIRGIN
                  ISLANDS’ is substituted for the ‘UNITED STATES’ whenever
                  necessary.

                                  1
BIR and DOF1 are the two primary agencies responsible for
collecting the tax revenues necessary to finance the obligations of
GVI. BIR is charged with collecting personal and corporate
income taxes, payroll withholding taxes, gross receipts taxes, and
hotel occupancy taxes. DOF is responsible for collecting all real
property taxes and sewer fees, as assessed, prepared, and recorded
by the Lieutenant Governor’s Office.

With a history of tax administration and collection problems, GVI,
in 1985, enacted tax evasion legislation to be implemented by the
Lieutenant Governor’s Office, DLCA, and BIR.2 Under this
legislation, DLCA cannot issue or renew a license to do business in
the Virgin Islands without an affidavit, known as the tax clearance
letter, signed by BIR affirming that all taxes have been paid or that
an agreement to pay outstanding taxes has been made. Since
passage of this legislation, however, minimal progress has been
made in collecting tax revenues from delinquent taxpayers and
non-filers.




1
  Responsibilities for both agencies are authorized under the Virgin Islands Code
(VIC): 33 VIC § 681 for the BIR and 33 VIC § 2492 for the DOF.
2
  27 VIC § 304
                      2
 RESULTS OF AUDIT
                 The failure to address identified long-standing deficiencies in the
OVERVIEW         collection of delinquent taxes continues a decade-long practice of
                 administrative non-feasance. BIR and DOF did very little to
                 collect from delinquent taxpayers and non-filers, resulting in over
                 $250 million (Figure 2) in cumulative uncollected tax revenues
                 over the past 10 years, of which an estimated $128 million is not
                 likely to be collected. This occurred because BIR and DOF
                 focused on accounting for receipts to the exclusion of collection
                 efforts. In addition, we found circumvention of law in the issuance
                 of business licenses to applicants who were delinquent in paying
                 taxes, and in one instance we found a flagrant abuse of position in
                 the issuance of tax clearance letters. These conditions, taken
                 collectively, demonstrate a systematic breakdown in the collection
                 of delinquent taxes, which undermines the integrity of the Virgin
                 Islands tax system.




                 Information provided by BIR and DOF. Of the $253.4 million, $192 million is
                 revenue that would have been collected by BIR and $61.4 million by DOF.
                                                                                   Figure 2

                 We reviewed 160 taxpayer accounts consisting of 40 personal and
BIR COLLECTION   corporate income tax accounts, 40 gross receipts tax accounts,
ACTIVITIES       40 payroll tax withholding accounts, and 40 hotel occupancy tax
UNFOCUSED        accounts representing $23.5 million of the $192 million owed. We
                 found significant deficiencies in tax collection practices that
                 illustrated BIR’s failure to discharge its tax collection
                 responsibilities to maximize tax collection. Specifically, BIR did
                 not (1) timely assess taxpayers, (2) meet collection timelines,
                 (3) effectively use collection officers, or (4) identify non-filers. As
                 a result of the age of the debt (Figure 3), we estimate that
                                      3
                $128 million of the $192 million in uncollected tax revenue is not
                likely to be collected, a potential waste of financial resources that
                could have been used by GVI.




                                                                             Figure 3

                The older the debt, the less likely it will be collected. According to
                the U.S. Department of Commerce, collection is reduced to
                45 cents for every dollar owed on a 1-year delinquent debt; to
                23 cents after 2 years; and to 12 cents after 3 years. Using this
                formula, BIR, at best, will collect only one-third of the
                $192 million in taxes owed.

►Untimely Tax   The VIC3 stipulates that all internal revenue taxes must be assessed
Assessments     within 3 years after a return is filed. Assessments begin the tax
                collection process, and if an assessment is not made within 3 years,
                BIR cannot legally collect the tax. We found 20 instances in our
                sample of 160 taxpayer accounts where BIR did not assess within
                the mandated time frame, resulting in the loss of $731,904 in owed
                taxes.

                Additionally, BIR did not initiate the collection process for tax
                returns submitted without full payment until an average of
                18 months had elapsed, thereby squandering half of the 3-year
                period allowed for tax assessment under the VIC. By taking
                18 months to make an assessment of taxes, BIR’s likely collection
                rate is significantly reduced from 100 percent to 45 percent, as
                illustrated in Figure 3.



                3
                    33 VIC § 1161
                                    4
►Failure to Meet      Even after making assessments, BIR neglected to issue delinquent
Collection Time       notices according to established procedures, which require BIR to
Lines                 issue three such notices within 90 days to remind taxpayers that
                      payment is due and that property could be seized for payment.
                      After 90 days, BIR should prepare a delinquency report, which is
                      used to assign cases to revenue officers for collection. We found
                      that BIR did not send second and third notices to 129 of the
                      160 taxpayers sampled that were delinquent for periods of up to
                      5 years. According to BIR officials, the mechanism for issuing
                      second and third notices was disabled in 2004 because of
                      (1) insufficient capacity on the tax computer system and (2) a large
                      number of errors related to a changeover from an older computer
                      system, which caused incorrect notices to be issued to taxpayers.
                      Because BIR discontinued issuing second and third notices, the tax
                      system no longer generated delinquency reports. Without these
                      reports, the Chief of Delinquent Accounts and Returns stated that
                      she began assigning cases based on high dollar values. However,
                      our testing revealed that cases were not assigned systematically. In
                      fact, of the 160 taxpayer accounts reviewed, 109, valued at
                      $13.7 million, had never been assigned to revenue officers for
                      collection, although some had been assessed as far back as 1997.

►Ineffective Use of   We also noted that revenue officers allocated a significant amount
Revenue Officers      of time researching the validity of taxpayer delinquencies when
                      delinquency notices were issued. Because the Chief of Delinquent
                      Accounts and Returns signs the delinquency notices issued by the
                      Processing Accounts and Returns Branch, taxpayers with questions
                      about the notices come directly to revenue officers, rather than
                      going to processing personnel. As a result, according to revenue
                      officers, they functioned more as “correction” rather than
                      “collection” officers, working to correct errors, which included
                      missing payments and tax exemption credits issued by the
                      Economic Development Commission.4

                      In cases where revenue officers attempted to collect taxes due on
                      assigned cases, BIR’s failure to follow through on enforcement of
                      liens and other collection devices rendered these attempts
                      ineffective. For example:

                      ¾ A contractor owed $960,190 in withholding taxes from March
                        2002 through April 2007. Although revenue officers filed
                        three different liens in 2001 and 2004, BIR did not enforce the
                        liens, even though withholding tax is a federal tax for which
                        nonpayment can result in imprisonment. After years of BIR’s
                        inaction, the liens were rendered unenforceable.

                      4
                        The Economic Development Commission was established to encourage
                      business expansion in the Virgin Islands and can grant a variety of tax benefits,
                      including tax exemptions.
                                            5
                       ¾ A hotel owed hotel occupancy taxes of almost $100,000 since
                         2000. In 2006, when BIR found out the hotel property was to
                         be sold by auction, it prepared a summons and a lien.
                         However, the lien was filed only 15 days before the property
                         was sold for $900,000, and BIR was unable to collect any of
                         the outstanding taxes.

  ►No Enforcement      BIR did not make any effort to identify non-filers until our audit
  of Collection from   began and therefore had no assurance that all entities required to
  Non-Filers           file taxes in the Virgin Islands were doing so. BIR has the
                       capability to identify non-filers of personal income taxes, based on
                       W-2s and 1099s provided by employers, detailing the amount of
                       wages paid. However, BIR did not take timely action to identify
                       non-filers and collect taxes when warranted. We found that
                       18,669 W-2 and 1099 information returns for tax years 2003 and
                       2004, representing over $221 million in wages, could not be
                       matched to any filed tax returns. Of those non-filers, 5,609 W-2s
                       and 1099s were related to GVI employees, with reported earnings
                       of over $83 million. Although BIR was aware of the non-filers, it
                       did not take action to ensure that they filed or that appropriate
                       penalties were applied to the accounts.

                       Further, BIR undertook only minimal effort to determine the level
                       of non-filers in other tax classifications. For example, we noted
                       that although a doctor filed a single withholding tax return in 2002,
                       we found no evidence that other withholding tax returns were filed
                       or paid, even though this doctor continued to operate a practice at
                       the time of our audit. We found no evidence of any activities
                       undertaken by BIR to determine why the doctor had not filed since
                       2002. Without canvassing or crosschecking the different classes of
                       taxes, BIR could not ensure that all businesses required to file were
                       actually filing.

                       In addition to our sample of 160 deliquent accounts at BIR, we also
REAL PROPERTY TAX      sampled 80 delinquent property tax accounts totaling $9.4 million
BILLS UNPAID           at DOF and found no evidence of effective collection effort. The
WITHOUT                lack of effort occurred because (1) DOF’s manual tax and payment
CONSEQUENCE            recording systems did not provide accurate and up-to-date taxpayer
                       information, and (2) DOF did not make a sustained effort to collect
                       outstanding taxes. As a result, $61.4 million in unpaid property
                       taxes and penalties is currently owed GVI5.

                       The process of determining outstanding property tax balances was
  ►Antiquated
                       cumbersome and time consuming and did not lend itself to the
  Recordkeeping
                       efficient or effective collection of taxes. To determine the total
  Practices
                       delinquency of a taxpayer who has not paid property taxes for
                       more than 1 tax year, enforcement officers must compile a status

                       5
                           For all property tax periods up to 2004.
                                                6
                    report that lists the annual delinquency of the taxpayer. This
                    entails manually researching copies of old bills located in file
                    cabinets and determining the amount owed by reviewing dusty,
                    old, and hard-to-read annual tax rolls stacked on shelves at DOF
                    (see Figure 4).




                                                                            Figure 4

                    After completion of manual research, which also includes
                    determining whether Economic Development Commission tax
                    exemption credits have been accuratedly applied, enforcement
                    officers must consult the Real Property Tax Inquiry System to find
                    out whether payments for prior years have been made. When
                    enforcement officers have compiled the amount of taxes owed,
                    they must then manually calculate related penalties and fees.

                    This time-consuming process hindered collection efforts because
                    enforcement officers and collectors had to allocate a significant
                    amount of time to researching taxpayer delinquencies, rather than
                    actually collecting taxes. In addition we found an example of
                    understaffing at one of DOF’s enforcement offices. Specifically,
                    the St. Croix office was understaffed, with only one enforcement
                    officer and two collectors assigned to handle delinquencies,
                    resulting in low morale and poor collection efforts. We were told
                    that retired enforcement officers were contracted to prepare and
                    issue status reports to delinquent taxpayers. However, we were
                    unable to determine what, if anything, was done by these
                    contractors because DOF could not locate documentation showing
                    their efforts.

                    Based on our review of 80 delinquent tax accounts, we found that
►Minimal Efforts    collection efforts consisted of one letter notifying a taxpayer of
Equals No Results   unpaid taxes and three instances where taxpayer names were
                    published in newspapers. The VIC stipulates:

                           Within sixty (60) days after the date on which taxes and public
                           sewer user fees become delinquent [tax bills become delinquent
                           60 days after they become due], the Commissioner of Finance
                           shall publish the names of all delinquent real property tax owners
                           once in a different newspaper of general circulation in each

                                       7
                             island district, and such publication shall be deemed as notice to
                             the taxpayer of the impending sale of the real property at public
                             auction. Said general notice shall state that unless such
                             delinquent taxes and public sewer system user fees, together with
                             the interest provided by section 2393 of this title, are paid within
                             a period of 30 days from the publication date of the said notice,
                             the property of the taxpayer will be attached and sold in a
                             manner provided in this subtitle.

                   Further review disclosed that DOF published delinquent taxpayer
                   notices only for property taxes due prior to 1997 and has not had a
                   sale of property to satisfy a tax debt since 2005. These efforts fall
                   far short of what is needed to recover the delinquent property tax
                   debt of $61.4 million.

                   Twenty-two years after the Virgin Islands legislature passed
CIRCUMVENTION OF   legislation to prevent tax evasion, we discovered the circumvention
LAW AND ABUSE OF   of this legislation and the abuse of power by an official charged
POSITION           with enforcement of the law. DLCA’s issuance of business
                   licenses without tax clearance letters and BIR’s issuance of
                   clearance letters when delinquent taxes were owed rendered the tax
                   evasion legislation ineffective and further undermined the integrity
                   of GVI’s tax collection efforts.

                   The Virgin Islands legislature envisioned that the use of affidavits,
                   known as tax clearance letters, would be an integral part of a
                   program to prevent tax evasion. As part of initial applications for
                   business licenses, tax clearance letters were “gatekeepers,” that is,
                   business license applications could not be accepted by DLCA
                   without favorable letters. The VIC6 states:

                         (j) The Commissioner [of DLCA] shall not issue or renew a
                             license to do business to any person who fails to present at
                             the time of application for said license or renewal
                             affidavits signed by an authorized officer of the
                             Virgin Islands Bureau of Internal Revenue and the
                             Division of Corporation and Trademark, Office of the
                             Lieutenant Governor affirming that said applicant has filed
                             and paid all taxes, penalties, and interest applicable to said
                             business or any other other business venture including a
                             certification from the corporate division of the Lieutenant
                             Governor’s office that all franchise taxes have been paid,
                             or has satisfactorily made agreement to pay the same.

                         (k) The Commissioner shall, after ten (10) days’ notice,
                             revoke any license of a person who fails to file and pay all
                             taxes, penalties, and interest due to theVirgin Islands
                             Bureau of Internal Revenue and the Division of
                             Corporations and Trademarks, Office of the Lieutenant

                   6
                       27 VIC § 304
                                         8
                              Governor in connection with the operation of his business
                              activities or who has not made a satisfactory agreement to
                              pay the same.

                     We were told that DLCA, acting alone and contrary to the law,
                     established an internal policy that allows only 15 working days for
                     receipt of a tax clearance letter before DLCA will issue a license
                     anyway. This practice creates an environment that at best fails to
                     prevent tax evasion and at worst encourages and abets it.

                     We found eight instances where taxpayers obtained current
                     business licenses without obtaining a tax clearance letter from BIR
                     and three additional instances where, despite unfavorable tax
                     clearance letters from BIR, taxpayers were granted current
                     business licenses. In one of these instances, the applicant received
                     a business license after receiving an unfavorable letter from BIR
                     for $3.5 million in unpaid gross receipts and withholding taxes.

►Abuse of            The former Director of BIR abused his position when he issued
Position by Former   favorable tax clearance letters to delinquent taxpayers,
BIR Director         circumventing control procedures established under the VIC7 and
                     thereby aiding and abetting the nonpayment of delinquent taxes.

                     Tax clearance letters were to be issued only after researching all
                     accounts on the tax system to determine whether the taxpayer was
                     current or delinquent. In 2002, after the Supervisor of Tax Records
                     issued an unfavorable letter to a contractor owing $435,000 in
                     delinquent taxes, the former Director disregarded the unfavorable
                     letter and issued a favorable tax clearance letter which he signed
                     for the supervisor. The former Director continued to issue
                     favorable letters to the contractor through 2005, with the contractor
                     owing GVI $437,000 in delinquent gross receipts and withholding
                     taxes.

                     Between 2002 and 2006, the former Director issued 237 favorable
                     tax clearance letters to taxpayers, some of whom were not current
                     in their filing and paying of taxes or did not have a payment
                     agreement in place. The letters to delinquent taxpayers falsely
                     stated that, according to BIR, the taxpayers were current in filing
                     and paying their tax obligations, thereby allowing them to evade
                     payment of taxes to GVI. For example, we found 31 favorable tax
                     clearance letters issued to a businessperson who owned a chain of
                     31 gas stations and convenient stores on St. Croix. The
                     businessperson had evaded filing and payment of taxes to the St.
                     Croix office for 7 years, despite efforts by a revenue officer and
                     managers in that office to collect the taxes through summons,
                     7
                       The VIC provides that BIR may issue tax clearance letters to taxpayers who are
                     either current on their tax liabilities or who have established and are current on a
                     tax payment plan.
                                            9
director returns, liens, and levies. The businessperson eventually
accumulated a balance of $1.75 million in taxes owed for 21 of the
31 businesses for which tax returns were filed.8 When the
management of the St. Croix office refused to issue favorable tax
clearance letters to the businessperson, the businessperson traveled
to St. Thomas, where the former Director issued favorable letters in
May 2004 for a one-time payment of $25,000. We have referred
this abuse by the former Director to our Office of Investigations.




8
    The businessperson did not file returns for the remaining 10 businesses.
                        10
RECOMMENDATIONS
                  We recommend that the Governor of the Virgin Islands:
TO THE GOVERNOR
OF THE VIRGIN        1. Lead a tax administration task force to develop an action
ISLANDS                 plan ensuring filing and payment of all taxes due GVI.
                        This task force should include directors and commissioners
                        of tax collection authorities and other tax experts from
                        outside GVI. Issues to be addressed should include
                        integrating and focusing tax administration and collection
                        efforts GVI-wide and establishing staffing levels for
                        effective tax program performance.

                     2. Direct BIR and DOF to develop a plan and process to
                        correct taxpayer accounts to allow for timely tax status
                        determination and collection activities.

                     3. Direct BIR and DOF to establish tax assessment and
                        delinquency notification processes to ensure timely
                        communication of taxes due and enforcement and
                        collection action on delinquent accounts. Actions would
                        include assessing all taxes, issuing collection notices, and
                        assigning tax debts to revenue officers in a timely manner
                        to minimize tax revenue losses.

                     4. Direct BIR to begin matching W-2 and 1099 forms to
                        individual and corporate returns to identify potential
                        non-filers, assess tax liabilities based on available
                        information, and initiate immediate collection actions to
                        encourage filing as well as collecting revenues due.

                     5. Direct BIR to discontinue issuing tax clearance letters to
                        any taxpayers who are not current in their tax payments or
                        who do not have tax payment agreements in force.

                  In his November 30, 2007 response to our draft report
GOVERNOR’S        (Appendix 4), the Governor of the Virgin Islands concurred with
RESPONSE AND      our recommendations. The Governor stated that his office was
OFFICE OF         “already in the planning stages of acquiring the consultants needed
INSPECTOR         from outside the GVI to work with BIR management and staff as a
GENERAL (OIG)     ‘working’ task force to enhance our internal focus on tax and fee
REPLY             administration.” The Governor also stated that “a ten (10) point
                  plan to address the items that have been identified by both this
                  audit and the BIR already has been drafted,” including freeing up
                  and empowering revenue officers to “aggressively” pursue
                  delinquent collection from delinquent taxpayers, identifying non-
                  filers, and working with DLCA to prevent tax evasion. In addition,
                                     11
as part of his response, the Governor provided information
showing that BIR and DOF had implemented plans of action to
address each recommendation.

We are heartened both by the Governor’s concurrence with our
recommendations and by his timeliness in initiating the actions
needed to establish an effective and vigorous tax collection process
within the Virgin Islands—one that maximizes the revenues
needed to effectively operate the government. We look forward to
receiving continued confirmation of this ongoing work. Based on
the Governor’s response, we consider Recommendations 1, 2, and
4 to be resolved but not implemented and Recommendations 3 and
5 to be resolved and implemented. The status of the audit
recommendations is shown in Appendix 5.




                  12
Appendix 1 - Audit Scope and Methodology
                The objective of our audit was to identify the current level of taxes
OBJECTIVE AND   and fees owed to GVI and determine if GVI was making
SCOPE           reasonable efforts to collect these outstanding amounts. We
                judgmentally sampled and reviewed 160 delinquent accounts
                totaling $23.5 million at BIR for tax years 2003 to 2005 and
                80 delinquent property tax accounts totaling $9.4 million at DOF
                from the 2004 delinquency list, based on the dollar amount of the
                delinquent accounts.

                We performed our audit work from September 2006 through June
                2007. To accomplish our objective, we interviewed officials and
                reviewed tax forms, payment records, computerized tax
                information, collection history files, tax clearance letters, annual
                tax bills, and tax rolls on St. Thomas and St. Croix. We also
                consulted with officials from DLCA, the Lieutenant Governor’s
                office on St. Thomas and St. Croix, and the Economic
                Development Commission on St. Thomas.

                Our audit was conducted in accordance with the Government
                Auditing Standards, issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records and
                other auditing procedures we considered necessary under the
                circumstances. As part of the audit, we evaluated the internal
                controls related to the administration and collection of personal and
                corporate income, gross receipts, hotel occupancy, withholding,
                and real property taxes and sewer fees to the extent we considered
                necessary to accomplish the audit objective.

                Our evaluation disclosed significant internal control deficiencies
                that called into question the accuracy of the taxes owed. BIR and
                DOF did not always ensure that payments were applied timely to
                taxpayer accounts or that tax information was reconciled. In
                addition, BIR and DOF incorrectly categorized some tax exempt
                accounts as delinquent accounts, causing receivables to be
                overstated by at least $6.5 million.

                We found 46 instances where BIR did not apply payments to
                taxpayer accounts until after 1 to 6 years had elapsed. Further,
                when BIR transferred gross receipts and hotel occupancy taxes
                from its old stand-alone systems to the Virgin Islands Tax System
                in 2004, all data were not thoroughly reconciled prior to the
                transfer.

                The Virgin Islands Tax System did not always contain updated and
                reconciled information, nor did BIR maintain reliable and
                                  13
accessible hard copies of tax returns to ensure the validity of
taxpayer information. Of the 160 taxpayer accounts reviewed, we
found that original tax returns for 90 accounts, valued at
$9.8 million, could not be readily retrieved.

Given the magnitude of the control and recording deficiencies
identified, we were unable to determine the financial effects such
deficiencies had on the tax receivable balances. Internal control
weaknesses identified as a result of our audit are discussed in the
Results of Audit section of this report. The recommendations, if
implemented, should improve the internal controls in tax
collection.




                  14
Appendix 2 – Prior Audit Coverage
               Over the past 20 years, we have performed a number of audits and
               evaluations of various aspects of GVI’s tax collection process.
               Common to each of these reports are deficiencies that collectively
               demonstrate a systemic breakdown in tax administration and
               enforcement, which undermines public confidence in the fair
               administration of GVI’s tax laws. Our reports in these areas
               include the following:

               ¾ August 2003, Follow-up of Recommendation Relating to
                 Internal Revenue Taxes, Bureau of Internal Revenue,
                 Government of the Virgin Islands (No. 2003-I-0059)
                 BIR did not take action to (1) collect $4.8 million from
                 delinquent taxpayers; (2) collect a total of $408,000 from
                 68 delinquent accounts before the statute of limitations expired;
                 and (3) file liens and levies on delinquent taxpayers to serve as
                 the government’s claim against their property.

               ¾ March 1999, Administration of Real Property Taxes,
                 Government of the Virgin Islands (No. 99-I-379)
                 DOF did not maintain accounts receivable records for
                 delinquent real property tax bills or effectively enforce the
                 collection of delinquent taxes. GVI revenue accounts were
                 also not up to date because of delays in posting property tax
                 collections. We estimated that delinquent property taxes
                 totaled at least $15.4 million.

               ¾ December 1997, Internal Revenue Taxes, Bureau of Internal
                 Revenue, Government of the Virgin Islands (No. 98-I-188)
                 BIR did not (1) realize all potential revenue collections because
                 it could not access a taxpayer's complete and accurate payment
                 history for all classes of taxes from a single computer system;
                 (2) effectively use collection practices and tools, such as liens
                 and levies, to enforce the collection of amounts owed by
                 taxpayers; or (3) implement adequate internal controls to
                 effectively administer its audit function. BIR also did not
                 collect $10.1 million from over 1,700 taxpayer cases or
                 $324,000 because the statute of limitations had expired and had
                 granted penalty waivers totaling $795,000 without required
                 documentation. In addition, data produced by the Computer
                 Operations Branch to detect and prevent non-filers and filers of
                 duplicate dependent claims were not made available to the
                 Audit Enforcement Branch in a consistent and timely manner.




                                15
¾ May 1991, Follow-up of Recommendations Regarding Gross
  Receipts, Hotel Occupancy, Excise, and Income Taxes,
  Government of the Virgin Islands (No. 91-I-791)
  Many of the deficiencies disclosed in the prior reports still
  existed and could be attributed to underlying problems. These
  problems must be corrected before BIR can effectively
  administer, enforce, and collect taxes.

¾ April 1990, Follow-up of Recommendations Concerning
  Property Tax Administration Activities, Government of the
  Virgin Islands (No. 90-67)
  DOF could enhance efficiency, increase revenues, and reduce
  the risk of property tax losses by improving collection
  procedures and did not have adequate control over the records
  and processes used to enforce property tax collection.

¾ February 1988, Administration, Enforcement, and Collection of
  Property Taxes, Government of the Virgin Islands (No. 88-46)
  Improvements were needed in the overall administration of
  income taxes, the ability to locate and identify delinquent
  taxpayers, the level of effort exercised in collecting delinquent
  taxes, and the internal controls over actual tax collections.




                 16
Appendix 3 – Monetary Impact


                                                                                        POTENTIALLY
                                           UNCOLLECTED              WASTED                 LOST
              FINDING AREA                  REVENUES               REVENUES              REVENUES
                                                (IN MILLIONS)

       LACK OF COLLECTION EFFORTS – BIR
       (Recommendation 3)
          Subtotal                                    $192.0                 $0.71               $128.02

       LACK OF COLLECTION EFFORTS – DOF
       (Recommendation 3)
         Subtotal                     $61.4


             Total                                    $253.4

      1
        Of the $253.4 million, $0.7 million cannot be collected because BIR did not assess the
      taxes within the legally mandated time frame.
      2
        Based on the age of the debt, an estimated $128 million is potentially uncollectible.




                                               17
Appendix 4 – Governor of the Virgin Islands’
Response




                          18
19
20
21
22
23
24
Appendix 5 – Status of Audit Recommendations

          Finding/
      Recommendation          Status              Action Required
         Reference
            1          Resolved, Not   We look forward to receiving the written
                       Implemented.    results of the working tax administration
                                       task force.
            2          Resolved, Not   We look forward to receiving a copy of
                       Implemented.    the written plan requested from the
                                       Director of BIR.
          3 and 5      Resolved and                      None
                       Implemented

            4          Resolved, Not   We look forward to your providing
                       Implemented.    evidence of coordination efforts with
                                       other departments to identify employees
                                       who are non-filers and action taken to
                                       resolve the matter.




                                  25
    Report Fraud, Waste, Abuse
       And Mismanagement
                  Fraud, waste, and abuse in
               government concerns everyone:
              Office of Inspector General staff,
              Departmental employees, and the
             general public. We actively solicit
              allegations of any inefficient and
             wasteful practices, fraud, and abuse
           related to Departmental or Insular area
          programs and operations. You can report
              allegations to us in several ways.



By Mail:                U.S. Department of the Interior
                        Office of Inspector General
                        Mail Stop 5341 MIB
                        1849 C Street, NW
                        Washington, D.C. 20240

By Phone:               24-Hour Toll Free         800-424-5081
                        Washington Metro Area     703-487-5435

By Fax:                 703-487-5402

By Internet:            www.doioig.gov



                                                           Revised 07/07




                    .
